<html>
<title> - OVERSIGHT OF THE HIGHWAY BRIDGE PROGRAM AND THE NATIONAL BRIDGE INSPECTION PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
              OVERSIGHT OF THE HIGHWAY BRIDGE PROGRAM AND 
                 THE NATIONAL BRIDGE INSPECTION PROGRAM 

=======================================================================

                               (111-131)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 21, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-562 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)



                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              JERRY MORAN, Kansas
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          HENRY E. BROWN, Jr., South 
MICHAEL H. MICHAUD, Maine            Carolina
BRIAN HIGGINS, New York              TIMOTHY V. JOHNSON, Illinois
GRACE F. NAPOLITANO, California      TODD RUSSELL PLATTS, Pennsylvania
DANIEL LIPINSKI, Illinois            BILL SHUSTER, Pennsylvania
MAZIE K. HIRONO, Hawaii              JOHN BOOZMAN, Arkansas
JASON ALTMIRE, Pennsylvania          SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
HEATH SHULER, North Carolina         JIM GERLACH, Pennsylvania
MICHAEL A ARCURI, New York           MARIO DIAZ-BALART, Florida
HARRY E. MITCHELL, Arizona           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  CONNIE MACK, Florida
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      CANDICE S. MILLER, Michigan
ALBIO SIRES, New Jersey              MARY FALLIN, Oklahoma
DONNA F. EDWARDS, Maryland           VERN BUCHANAN, Florida
GENE TAYLOR, Mississippi             AARON SCHOCK, Illinois
LEONARD L. BOSWELL, Iowa             VACANCY
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan, Vice 
Chair
BETSY MARKEY, Colorado
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Come, Joseph W., Assistant Inspector General for Highway and 
  Transit Audits, Office of Inspector General, U.S. Department of 
  Transportation.................................................     2
Gee, King W., Associate Administrator for Infrastructure, Federal 
  Highway Administration.........................................     2
Herr, Phillip R., Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................     2
Kerley, Malcolm T., Chief Engineer, Virginia Department of 
  Transportation.................................................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

DeFazio, Peter A., of Oregon.....................................    37
Graves, Sam, of Missouri.........................................    39
Mitchell, Harry E., of Arizona...................................    45
Oberstar, James L., of Minnesota.................................    46

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Come, Joseph W...................................................    52
Gee, King W......................................................    65
Herr, Phillip R..................................................    94
Kerley, Malcolm T................................................   115

                       SUBMISSIONS FOR THE RECORD

Come, Joseph W., Assistant Inspector General for Highway and 
  Transit Audits, Office of Inspector General, U.S. Department of 
  Transportation, response to request for information from Hon. 
  DeFazio, a Representative in Congress from the State of Oregon.    63
Gee, King W., Associate Administrator for Infrastructure, Federal 
  Highway Administration, response to request for information 
  from Hon. DeFazio, a Representative in Congress from the State 
  of Oregon, response to request for information from Hon. 
  DeFazio, a Representative in Congress from the State of Oregon.    76
Herr, Phillip R., Director, Physical Infrastructure Issues, 
  Government Accountability Office, response to request for 
  information from Hon. DeFazio, a Representative in Congress 
  from the State of Oregon.......................................   113
Kerley, Malcolm T., Chief Engineer, Virginia Department of 
  Transportation, response to request for information from Hon. 
  DeFazio, a Representative in Congress from the State of Oregon.   124

                         ADDITION TO THE RECORD

American Road and Transportation Builders Association, written 
  testimony......................................................   129

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    OVERSIGHT OF THE HIGHWAY BRIDGE PROGRAM AND THE NATIONAL BRIDGE 
                           INSPECTION PROGRAM

                              ----------                              


                        Wednesday, July 21, 2010

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                   Washington, DC.&
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, Hon. Peter A. DeFazio 
[Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Highways and Transit Subcommittee will now 
come to order. We are holding a hearing today on oversight of 
the Highway Bridge Program and National Bridge Inspection 
Program.
    I have read the testimony. I think there are some very 
serious issues and deficiencies here in terms of Federal 
oversight, but it is buried. You couldn't tell it from reading 
the IG's testimony or reading the GAO report. I am used to 
reading these things. The major issues were buried in there. 
There were a couple of oblique references to some problems with 
States that had a whole bunch of bridges that should have been 
weight limited or closed, and they weren't, but it was just 
sort of a passing reference. I believe it is a much more 
serious issue, and I would hope that the panel would be a 
little bit more forthright in their testimony in addressing 
these issues.
    It is not acceptable to be putting a lot of Federal 
investment out there, sending it to States, to have tens of 
thousands of bridges in America that are either weight limited, 
unsafe, structurally unsound or functionally obsolete, and not 
know how the money is being applied or see that the money is 
being misapplied, and then to call a hearing because we think 
there are some serious concerns and then receive this very 
turgid so-called testimony, which kind of dances around this 
and obliquely refers to it. So I will give you a chance to 
rectify that either in questions or in your testimony. If you 
want to depart from your prepared remarks, which I have already 
read, the staff has read, and I assume the Minority has read, 
that would be great.
    With that, I will turn to the Ranking Member.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, for 
calling this hearing on the oversight of the Highway Bridge 
Program and the National Bridge Inspection Program.
    According to the GAO, the number of deficient bridges in 
the United States declined from 1998 through 2007, which is, of 
course, good news, but additional work needs to be done. This 
is a very, very big program in this country, and there are a 
lot more bridges in this Nation than most people realize. For 
instance, there are almost 20,000 bridges in my home State of 
Tennessee alone.
    While the decrease that I mentioned in the number of 
deficient bridges is good news, recent reports from the GAO and 
the Inspector General have brought to light a variety of issues 
within the Highway Bridge Program and the National Bridge 
Inspection Program that need to be addressed in order to 
continue the progress that we all want to see made. The 2008 
GAO report that we will hear about today claims that the 
Highway Bridge Program's goals are not focused on clear Federal 
interests, therefore allowing States to use Federal funds on a 
wide variety, perhaps too wide a variety, of bridge projects.
    The same GAO report shows no clear tie between the Highway 
Bridge Program funding and improvements to deficient bridges. 
The Highway Bridge Program formula is based on the needed 
repair to deficient bridges, but does not take into account the 
State's effectiveness in reducing the number of deficient 
bridges. And, of course, that is a key part of that, or 
certainly what we should look into.
    Today we will also hear from the Inspector General's Office 
about a report that that office released earlier this year 
documenting cases where FHWA did not adequately oversee State 
compliance with bridge inspection standards under the National 
Bridge Inspection Program. According to the report, FHWA's lack 
of oversight of the bridge inspection standards led to Federal 
highway funds being distributed to States that did not comply 
with bridge safety regulations.
    This hearing provides us an opportunity to discuss the 
issues raised in these reports so that we can address them in 
the next highway authorization bill. I look forward to hearing 
from the witnesses, and I thank you for calling this hearing.
    Mr. DeFazio. I thank the Ranking Member.
    We had had a request for a Member to sit in on this 
hearing, who I don't see, so I guess we will entertain that if 
he shows up.
    With that, we would turn then to the panel. And first would 
be Mr. Joseph W. Come, Assistant Inspector General for Highway 
and Transit Audits.
    Mr. Come.

 TESTIMONY OF JOSEPH W. COME, ASSISTANT INSPECTOR GENERAL FOR 
 HIGHWAY AND TRANSIT AUDITS, OFFICE OF INSPECTOR GENERAL, U.S. 
     DEPARTMENT OF TRANSPORTATION; KING W. GEE, ASSOCIATE 
       ADMINISTRATOR FOR INFRASTRUCTURE, FEDERAL HIGHWAY 
      ADMINISTRATION; PHILLIP R. HERR, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; AND 
   MALCOLM T. KERLEY, CHIEF ENGINEER, VIRGINIA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Come. Mr. Chairman, Ranking Member Duncan, and Members 
of the Subcommittee, thank you for inviting me here today to 
update you on our work on the Federal Highway Administration's 
oversight of these two critical bridge programs. Our work has 
identified significant oversight weaknesses in the programs, 
and while the agency has responded positively to our 
recommendations, further actions are needed to enhance 
oversight and maximize the return on bridge investment.
    Let me talk three points that they need to do. First, 
Federal Highway needs to fully implement a data-driven, risk-
based oversight approach to target high-priority bridge safety 
risks. That success hinges on providing clear direction to its 
division offices on how to address identified risks and 
ensuring States provide accurate bridge data.
    Second, Federal Highway needs to ensure States comply with 
bridge inspection standards. Responding to our report, the 
agency has developed new criteria for determining overall 
compliance as well as procedures its division offices in the 
State should follow in enforcing compliance, but we want to see 
sustained management attention to be sure that this new 
guidance and criteria are rolled out nationwide before next 
year's inspection cycle.
    Finally, FHWA needs to strengthen oversight of the States' 
use of billions in Federal bridge funding. To do so it must 
capture sufficient data to evaluate how funds are spent and 
ensure States conduct required value engineering studies for 
bridge projects. These actions can help stretch limited Federal 
resources.
    Mr. Chairman, this concludes the summary of my statement. I 
am happy to answer any questions you or other Members of the 
Subcommittee may have.
    Mr. DeFazio. OK. Thank you.
    Mr. King W. Gee, Associate Administrator for 
Infrastructure.
    Mr. Gee.
    Mr. Gee. Chairman DeFazio, Ranking Member Duncan and 
Members of the Subcommittee, thank you for inviting me to 
discuss the Federal Highway Administration's Highway Bridge and 
National Bridge Inspection Programs.
    FHWA has strong bridge programs that reinforce safety as 
the DOT's highest priority. We have made significant efforts to 
address recommendations made by the Inspector General and GAO 
to ensure the continued safety of our Nation's bridges. In 
response to recommendations from the 2009-2010 OIG audit on our 
oversight, we are developing detailed criteria to help our 
division bridge staff evaluate compliance with the National 
Bridge Inspection Standards on a more uniform basis.
    We are revising policies and procedures for national 
oversight of the Bridge Inspection Program to be data-driven 
and risk-based. We are adding staff to enhance inspection 
program activities, including implementation of the new 
oversight approach in 2011. We are assessing and disseminating 
useful information on Bridge Management System implementation 
by the States. We are taking steps to improve the quality of 
data in the National Bridge Inventory. And we are enhancing the 
Financial Management Information System to allow improved 
tracking of bridge projects and obligations.
    The GAO recommended that DOT work with Congress to identify 
specific program goals in the national interest, develop and 
implement performance measures, incorporate best tools and 
practices, and review the program's funding mechanisms. FHWA 
continues to work with AASHTO and Congress on these 
recommendations, and throughout the process of the next 
reauthorization FHWA will be pleased to work with this 
Committee to further improve the condition and the performance 
of our Nation's bridges.
    Mr. Chairman, this concludes the summary of my written 
statement. I would be happy to answer questions.
    Mr. DeFazio. OK. Thank you, Mr. Gee.
    Mr. Phillip R. Herr, the Director, Physical Infrastructure 
Issues, GAO.
    Mr. Herr.
    Mr. Herr. Thank you. Chairman DeFazio, Ranking Member 
Duncan and Members of the Subcommittee, thank you for inviting 
me to this hearing on the Highway Bridge Program. I will 
briefly discuss the current state of the Nation's bridges and 
the extent to which the program aligns with principles GAO 
developed to reexamine surface transportation programs.
    National Bridge Inventory data indicate that one in four 
bridges are considered deficient. While the number of deficient 
bridges has declined from 1998 to 2009, it was not possible to 
determine the extent of the program's contribution to this 
decline because States can use bridge funds for a number of 
other purposes that do not necessarily reduce the number of 
deficient bridges.
    Turning to principles GAO developed to reexamine surface 
transportation programs and how they can be applied to the 
bridge program. First, the bridge program's goals are not 
focused on clearly identified Federal interests and have 
expanded to include a variety of improvements, making nearly 
any bridge potentially eligible for Federal funding. 
Reconsidering the breadth of this program would lead to a 
better focus.
    Second, the bridge program does not tie each State's 
funding level to performance improvements. Programs should tie 
together funding, performance and accountability to enhance 
outcomes.
    Third, the bridge program lacks sufficient tools to 
determine the results of Federal investments. Currently States 
use tools such as bridge management systems to do this. We are 
encouraged that FHWA reports taking steps to address our 
recommendation to collect information on States' use of such 
systems.
    Finally, fiscal sustainability remains a challenge in light 
of aging bridge infrastructure and estimated funding required 
to upgrade bridges built in the 1950's and 1960's.
    Mr. Chairman, this concludes my oral statement. I am happy 
to answer questions.
    Mr. DeFazio. OK. Thank you.
    And finally for a prepared statement Mr. Malcolm T. Kerley, 
Chief Engineer of Virginia Department of Transportation.
    Mr. Kerley. Good morning, Mr. Chairman. My name is Malcolm 
Kerley, Chief Engineer for the Virginia Department of 
Transportation, and I chair the AASHTO Subcommittee on Bridges 
and Structures. On behalf of AASHTO, thank you for the 
opportunity to share our views on the Federal-State partnership 
in ensuring we have safe and well-maintained State and locally 
owned bridges across the country.
    I would like to make three points. First, we are facing a 
perfect storm regarding our bridges. A large number, especially 
those on the interstate system, were roughly built at the same 
time and are reaching the end of their useful life. Traffic and 
truck loadings are increasing, our purchase power is 
decreasing, material costs have increased drastically. 
Preserving the Nation's investment in our transportation 
infrastructure must continue to be a top priority for all 
levels of government, and funding is just not adequate.
    Second, if we had all the funding we needed, States could 
immediately reconstruct or rehabilitate all structurally 
deficient bridges, fixing the worst first. If we don't, the 
States must take a more strategic approach, working to reduce 
the number of structurally deficient bridges, while 
simultaneously investing to prevent an even larger number of 
bridges from deteriorating just enough to push them over the 
edge to structural deficiency. We call these cusp bridges, 
those bridges which we can prevent from becoming structurally 
deficient and requiring major work if we just invest a lesser 
amount in maintenance or rehabilitation to extend their useful 
life.
    Third, I want to respond to the reports that States are 
transferring funds from the Federal Bridge Program. States do 
transfer funds to enable them more flexibility in managing 
their transportation programs. However, States are investing 
substantially more in State dollars on bridges than is provided 
under the Federal Highway Bridge Program. Transfers between 
Federal highway programs are simply a management tool and do 
not reflect the actual spending level.
    For example, in 2004, $10.5 billion was invested in bridge 
rehabilitation by all levels of government, more than twice the 
$5.1 billion appropriated through the Federal Highway Bridge 
Program.
    Bridge safety is one of the highest priorities. We stand 
ready to work with you to deliver a safe and well-performing 
bridge program through the Federal-State partnership and 
programs that stretch our available dollars.
    Thank you. I will be happy to answer any questions.
    Mr. DeFazio. Thank you.
    We will now proceed to questions. So the first question: 
the January 2010 Inspector General report, using data several 
years old, from 2007, documented one instance in which a State 
failed to close 96 bridges as required by the National Bridge 
Inventory system and two other instances in which States failed 
to properly post with maximum weight limit signs 200 and 500 
bridges respectfively. Now, what is really disturbing here is 
that in all three instances, Federal Highway Administration 
bridge engineers reported the States to be in compliance.
    So I guess this question would go to Mr. Gee, but anyone 
else is welcome to comment. Was headquarters aware of these 
instances of noncompliance prior to the release of the IG 
report? What actions, if any, did you take to ensure that the 
States properly closed and posted the bridges? And what 
procedures will be in place during the 2011 National Bridge 
Inventory review cycle to ensure that these sorts of incidents 
don't happen again?
    Mr. Gee. Thank you. In those instances where you cited----
    Mr. DeFazio. Pull the microphone a little closer, please.
    Mr. Gee. In instances where you cited the OIG's report, we 
went back to identify which States they were. And in the case 
of the 96 bridges, there were data inconsistencies, and the 
bridge engineer in the division did verify what the information 
showed. In both cases those States were actually declared in 
substantial compliance rather than in full compliance. We have 
since gone back to follow up on the information that the IG has 
made available, where it was available, and worked with the 
States to rectify the matters.
    Mr. DeFazio. So are you saying that there weren't 96 
bridges; you are saying there is an inconsistency, there 
weren't 96 that should have been closed?
    Mr. Gee. Correct. That number was not----
    Mr. DeFazio. What was the number?
    Mr. Gee. It was less than half of that.
    Mr. DeFazio. OK. So we had about 50 bridges that should 
have been closed that weren't closed, and that puts them in 
substantial compliance. How many bridges--you know, I mean, I 
find that--you know, is that in the regulations? I mean, like 
you have got 40, 50 bridges that should be closed that are 
unsafe, and you haven't closed them, but you are substantially 
in compliance. Is that the way our system works? If it works 
like that then maybe we need some changes.
    Mr. Gee. We do need some changes. What happens is the 
bridge engineer in our division office has to exercise 
engineering judgment in reviewing the information that is----
    Mr. DeFazio. So these engineers use these bridges? I mean, 
it is their judgment that these bridges, which should be 
closed, according to engineering standards, aren't closed; and 
they want to drive over them with a semi in front of them and 
behind them?
    Mr. Gee. In some cases it is a matter of reviewing the load 
rating to make sure that it is something that needs to be 
closed. In other cases the information in the database is not 
correct.
    Going forward, you asked a third question, which was what 
are we going to do in 2011. First of all, according to the 
regulations, a safety issue is reason for a State to be in 
noncompliance. So we are tightening up the definition of that 
in the work that we have been doing since the OIG's report. And 
we have set up a new approach to compliance reviews, which is 
risk-based, data-driven, and based on the 23 compliance factors 
that are in the regulations. We are tightening the definitions. 
We are setting up a process where they have to go through in 
very narrowly defined tolerance ranges to determine what is 
compliant and what is not compliant. And we will be using those 
to be much more proactive from a national perspective in 
working with each individual State.
    Mr. DeFazio. OK. And these will be implemented when, these 
changes?
    Mr. Gee. Calendar year 2011.
    Mr. DeFazio. OK.
    Mr. Gee. We just piloted the process in 12 States because 
we want to make sure that the definitions are uniformly 
understood the same way; we want to make sure that the process 
is understood by the engineers that have to use it. So we are 
evaluating the pilot right now and will be making the final 
changes and getting it out and training our division bridge 
engineers. And we also are in the process of hiring additional 
staff to help with the training and the implementation of the 
new oversight process.
    Mr. DeFazio. OK. Mr. Come, are you familiar with the 
pending changes, and do you think they will preclude a repeat 
of the problems you documented?
    Mr. Come. We are familiar with the changes. Our 2010 report 
focused on the question of giving the engineers adequate 
guidance to determine whether a bridge was--a State was in 
substantial compliance. They themselves told us they didn't 
have good guidance. They could identify individual standard 
issues, but they had not good guidance on how to produce an 
overall conclusion. We used the information like----
    Mr. DeFazio. Meaning where you get to the point of 
compliance, substantial compliance, whatever, the overall 
conclusion?
    Mr. Come. Right. There are five general areas that they had 
to look at. So they could come to conclusions in individual 
standards like inspection frequency and issues like that. But 
they were on their own, more or less, when it came to making a 
conclusion about being in substantial compliance. And they told 
us that they would like to get better guidance.
    We looked at NBIS compliance review data, which is where 
the 96 figure comes from, and used that to indicate areas where 
you would think there was a significant problem, but the State 
was still in substantial compliance.
    Now, as to the proposal, we made the recommendation. They 
responded positively to it. It includes issues we have said 
should be in such a proposal. It establishes minimum standards. 
We had found in the past sometimes that FHWA might give tools 
to the division offices to use, but they weren't using them. So 
it includes--from what we hear, it will include minimum 
standards; it will include risk-based criteria, which is 
another area we have called for; and it will include clear 
guidance on how to go forward after you find a deficiency.
    That was a variation we also found in division offices in 
regards to what to do to enforce a problem. In some States the 
State responded quickly; in others it took up to 2 years to fix 
a problem. But the States had different policies in place for 
how to fix these problems.
    From what I have heard from Federal Highways, this proposal 
will address those issues. It has been piloted, and we will be 
monitoring it closely. As an auditor I am paid to be skeptical, 
so we won't be closing that recommendation until we see the 
documentation supporting the fact that it has been rolled out 
nationwide and these new criteria and guidance are fully 
implemented.
    Mr. DeFazio. OK. Thank you.
    I recognize that Mr. Graves has arrived. He is a Member of 
the Full Committee and has asked for unanimous consent to take 
part in today's hearing. And hearing no objection, he will be 
allowed to take part in the hearing. According to the custom of 
the Committee, he would get the last question, however, since 
he doesn't sit on the Subcommittee.
    With that I turn to Mr. Duncan, and I will have a second 
round. Go ahead.
    Mr. Duncan. All right. Well, thank you very much, Mr. 
Chairman.
    Mr. Gee, I notice that in the Department of 
Transportation's conditions and performance reports, you 
estimate that $98.9 billion could be effectively used 
immediately to bring all of our bridges up to snuff, so to 
speak. Have you studied that figure? How did you arrive at that 
figure, and do you think that is a realistic or conservative 
estimate? Is that a ``completing a wish list'' type of 
estimate?
    Mr. Gee. It is not a wish list. It is a very analytical 
process, and it is a model. It is not an exhaustive inventory 
of all the needs out there; it is a model that projects what is 
needed on the 600,000 bridges that we have in the system. It is 
based on the structural need, but also improvements that may be 
needed or economically justified on bridges that are not 
structurally deficient. So it is all the improvements to 
bridges that can be made from an engineering standpoint and 
from an economic standpoint.
    Mr. Duncan. We have got, according to the material we have 
been given, 603,000 public road bridges, and approximately 
150,000 are deficient. But a little less than 20 percent of 
those bridges carry 71 percent of the traffic.
    Do you think we are doing an adequate job concentrating 
this funding on where the money actually needs to go, on these 
more high-volume bridges?
    Mr. Gee. Under the structure of our Highway Bridge Program, 
which is also true for all the rest of the Federal-Aid Highway 
Program, it is an eligibility-based program, and it is a 
program where the States are given the prerogative to choose 
which projects and, therefore, which bridges to spend the money 
on.
    What we have in the Highway Bridge Program is eligibility 
criteria based on the structural deficiencies, the functional 
obsolescence and the sufficiency rating of a bridge. So in 
order to use bridge program dollars, the sufficiency rating has 
to be below a certain threshold for rehabilitation and below a 
further lower threshold for replacement and the bridge has to 
be in a deficient status. But the prerogative for choosing the 
projects is the State's.
    Mr. Duncan. If we need $98.9 billion, and you heard Mr. 
Kerley mention that we are targeting roughly $5 billion in 
Federal funds and $10.5 billion, I think he said, from the 
States, are you advocating within your Department a big 
increase in the Federal funding for this program, or where do 
the deficient bridges range in priority within the Department 
of Transportation?
    Mr. Gee. Secretary LaHood just finished a round of 
townhall-like listening sessions. The last one was just held 
last week. The Department hasn't finished considering all the 
input yet, so I do not have a position to represent today.
    Mr. Duncan. All right. Mr. Kerley, Mr. Come says in his 
testimony that, quote, ``current practices do not ensure that 
States are using Highway Bridge Program funding effectively to 
improve the condition of deficient bridges''. What do you say 
about that? And, secondly, when you mentioned overall funding, 
how much does the State of Virginia receive in Federal monies 
for this program, and how much does the State itself allocate 
to bridges?
    Mr. Kerley. To answer your second question first, sir, for 
fiscal year 2011, we are receiving $111,700,000 and in State 
funds we have $122,400,000, for a total of $234.1 million- is 
what we have allocated to bridges for fiscal year 2011 in our 
program.
    As it was said also by others up here, the number of 
deficient bridges has decreased over time, and that has been a 
pretty steady decrease, I believe. So to make the statement 
that they are not addressing deficient bridges, I don't know if 
that is completely correct, because the numbers are going down.
    The age of bridges in the system nationwide is obviously 
increasing. We have a large number of bridges--you know, during 
the New Deal area, we have a large number of bridges during the 
interstate area that are getting old in Virginia. The average 
bridge age is 43 years. So you have to make a decision on 
balancing preventative maintenance, maintenance rehabilitation 
and replacement. So I think States with the funding that they 
have are trying to address a growing problem they have in the 
bridge program.
    Mr. Duncan. You are here as a representative of all the 
State DOT officials across the country. Where do you think most 
State DOT officials would rank bridge deficiency as one of 
their problems? Would it be one of their top three problems, or 
what would you say about that?
    Mr. Kerley. Well, for----
    Mr. Duncan. Are we making a mountain out of a molehill 
here?
    Mr. Kerley. From an official AASHTO viewpoint, I would have 
to get back with you on that, but just a top-of-the-head, I 
would say it is in their top five. I can tell you in the State 
of Virginia, for instance, our Commonwealth Transportation 
Board has highlighted deficient bridges, deficient pavements, 
but especially deficient bridges, in our 6-year program. But I 
would get back with you on an official thing from the AASHTO 
viewpoint, sir.
    Mr. Duncan. Well, let me ask you one other question. I am 
told that the House Appropriations Committee marked up a 
transportation appropriations bill yesterday, and in that bill 
they transferred $200 million away from the program such as the 
Highway Bridge Program to livability initiative funding that 
would include sidewalks and bike paths. Does the State of 
Virginia need more money being spent on bridge repairs or more 
money being spent on sidewalks and bike paths?
    Mr. Kerley. From my viewpoint, we would address the bridges 
first. We do support, obviously, enhancement to the quality of 
life for our citizens, but it is a matter of amount of money in 
the budget that we have. But we do emphasize deficient bridges 
and deficient pavements.
    Mr. Duncan. All right. Thank you very much, Mr. Chairman.
    Mr. DeFazio. I thank the Ranking Member.
    Next we will go in the order of arrival. That would be Mr. 
Hall.
    Mr. Hall. Thank you, Mr. Chairman, for holding this 
hearing.
    Thank you, Ranking Member, as well, and to our panel for 
joining us today.
    This is an extremely important issue in my district. In New 
York's Hudson Valley, in the 19th District, we have 13 bridges 
designated structurally deficient by the FHWA. These bridges, 
along with countless others, are under local and State control, 
including one that is closed right now on my dirt road in the 
town of Dover Plains, where the Dutchess County clerk and I 
happen to reside. I think the county is trying to make an 
example that we don't get special favors by keeping our bridge 
fixed last. But that is OK, I go the long way to town.
    Nonetheless, Mr. Come, in the Inspector General's January 
2010 report on the Federal Highway Administration oversight of 
the Highway Bridge Program and the National Bridge Inspection 
Program, your office issued several recommendations on how the 
FHWA can improve oversight of these two programs. One 
recommendation was that the FHWA strive toward performance-
based oversight of States' use of HBP funds in anticipation of 
reauthorization. In your view, have these extra steps been 
taken?
    Mr. Come. No. Thank you for the question.
    At this time we are not satisfied with the pace of the 
Federal Highway Administration's response on our 
recommendations related to tracking bridge funds. There were 
three main issues we wanted them to address. First, to try to 
acquire better data so they could connect the funding spent on 
structurally deficient bridges to those projects. We recognize 
that their system for tracking that information doesn't include 
that detail. But in response to our report, they had told us 
that by May they would provide us with an assessment of what 
changes they could make.
    What we also wanted to be done with this information was 
that the information be used to evaluate the effectiveness of 
the program and perhaps to communicate those results to key 
stakeholders, such as the States and the Congress, in a--
something like the performance and conditions report. At this 
time, as we were preparing for the hearing, we did hear from 
Federal Highway that they are now making a commitment to make 
some enhancements to the Fiscal Management Information System 
that they have that will better track the information. We 
welcome that information, will be getting additional 
information on the specifics of that going forward to see if 
that more fully addresses our recommendations.
    Mr. Hall. Thank you.
    And, Mr. Gee, the Inspector General in January of 2010 
reported that the FHWA's accounting system does not have the 
capability to track Federal aid spending on structurally 
deficient bridges. Is this problem just a matter of legacy 
software or is it inherently difficult to track the spending of 
that level at detail? Are States able to track this information 
reliably? And what could we in Congress do to better help you 
track the impact of or the use of Federal aid funding on 
deficient bridges?
    Mr. Gee. Thank you.
    The answer is yes, that as the program has changed over 
time, the character of the program has changed. We do have a 
legacy system that was not designed to do that kind of 
tracking, but we are looking at a fix to the current system 
where, when a project is authorized, the bridge number will 
also be tagged to that authorization. The challenge, however, 
is that in many cases a single project has multiple funding 
streams and has multiple parts to it, one of which is a bridge, 
while others are paving and widening. So there continue to be 
challenges that we are looking at to see what we can do to 
really narrow down what is being spent on each element of a 
given project.
    We are working on it. There is nothing that I can think of 
right now that we need from legislation.
    Mr. Hall. Thank you.
    And lastly I would ask, since I am running out of time 
here, the report found that there are 1,630 ineligible bridges 
which are on longer inspection schedules than the minimum 24 
months required, including 633, quote, ``fracture critical,'' 
unquote, bridges like the I-35 bridge, that were on a delayed 
inspection schedule.
    Can you explain the process that FHWA uses to negotiate 
State use of delayed inspection schedules, and do States need 
written approval from FHWA to extend the period of inspection? 
What steps are intended to be taken to remediate the situation?
    Mr. Gee. As you know, in general the rule is 24 months on 
fracture critical. We require hands-on inspection as well. But 
in terms of longer periods of inspection, there are a number of 
different factors, including the age and condition of the 
bridge. So our bridge engineer in a given State will evaluate 
what is being proposed by the State and determine if the 
justification for lengthening the inspection's frequency is 
acceptable. The State's proposal is then forwarded to our 
headquarters office for final review and approval.
    Mr. Hall. Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. Thank you.
    Henry Brown will be next.
    Mr. Brown. Thank you, Mr. Chairman, and thank you, 
gentlemen, for coming and sharing.
    I know in South Carolina transportation is a major item 
since we have such an influx of tourists. I know in our Myrtle 
Beach area, we have some 14 million visitors a year coming in, 
and so we appreciate your support in trying to meet some of 
those congestion needs.
    But, Mr. Gee, my question, I guess, will be directed to 
you. If anybody else wants to join in to help with the answers, 
I certainly would appreciate it. The way the funds are 
generated or distributed among the States, is it based on some 
formula, or is it based on some need formula? Exactly how are 
those funds distributed?
    Mr. Gee. The Highway Bridge Program funds are distributed 
by a needs formula that is based on the deck area of deficient 
bridges in a State. All of that is aggregated, and then the 
ratio of a particular State's deficient bridges and the cost to 
repair or replace them is factored in.
    Mr. Brown. So somebody makes a compilation of all of the 
deficient bridges in the United States, and then you would rank 
them by the seriousness of concern, and then you allocate some 
proportion of those funds to each State to meet those needs?
    Mr. Gee. Correct. Except that the cost that is peculiar to 
each State's replacement of a bridge and rehabilitation of a 
bridge is factored in.
    Mr. Brown. And I know that there is some flexibility of how 
those funds are being spent. Tell me how that works. I know 
that if it is bridge money, I understand this program has 
developed over $4 billion that has been actually used for other 
programs. Tell me how that works.
    Mr. Gee. I am sorry, what was the last part of your 
question, $4 billion?
    Mr. Brown. That is the information I have got here that 
said that since 1992, $4.7 billion of the Highway Bridge 
Program has been used for other accounts.
    Mr. Gee. I think Mr. Kerley answered part of that earlier. 
There are transfers out of the bridge program, and under the 
current legislation the States can transfer up to 50 percent 
out of a given program, the Highway Bridge Program being one of 
them, into any of the other programs. Some States do that 
because the Highway Bridge Program is the most restrictive in 
terms of how the funds are to be used. Oftentimes they will 
move some of the money into, say, the Surface Transportation 
Program but still use it on a bridge, but because the use of a 
combination of funds can be complicated, they can put a project 
together more efficiently using one funding source.
    Now, other monies that are not spent on bridges are spent 
on management and preservation activities, and that is a 
recognition over time that we have a looming bridge problem, 
and it is not just a matter of rehabilitating and replacing, 
but it is a matter of managing and extending the service life 
so that we get the best return that we can on that investment.
    Mr. Brown. Mr. Kerley, along those same lines, what percent 
of the bridge replacement funds do you get coming into Virginia 
that you actually use on bridge replacement, and what percent 
do you use on other related items?
    Mr. Kerley. In the Commonwealth of Virginia, we are 
required by budget language from our general assembly to 
utilize bridge money in the bridge program. In the past we had 
transferred money, as I indicated before, but historically we 
spend almost twice as much money on bridges as the amount of 
Federal bridge money that we receive.
    Mr. Brown. Do you have the flexibility whether to replace 
the bridge or to repair the bridge? Who makes those 
determinations?
    Mr. Kerley. As King said, the States have different ways. 
We have a prioritization that we use which takes into account 
structurally deficient. Most States have a prioritization where 
they are trying to look and balance the money that they have 
between replacing bridges, rehabilitation of bridges, 
maintenance of bridges. So when we develop our 6-year plan, and 
when most States develop their plan that they are going to do, 
they take that into account to maximize the use of all Federal 
funds that they receive.
    Mr. Brown. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Mrs. Napolitano is next on the list.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    I am kind of listening to what you are saying in terms of 
the States being allowed to use transportation money for other 
bridge--not necessarily the bridge repair. My concern or my 
question would go to is any tracking being done to ensure that 
that bridge continues to be on the list of needed critical 
repair because the money is not being used where it was 
initially appropriated to? And are you tracking it? And does 
that bridge still continue to be on a listing, if you will? And 
then how do you track it? Do you have the software? Are you 
developing and implementing new processes to be able to 
determine whether the new methodology is being utilized to do 
the repair? All those things go into the same things that I 
have concerns over.
    Mr. Gee. The National Bridge Inventory has the information 
on all the structurally deficient bridges, so that doesn't go 
away whether they spend money elsewhere or not. We do track 
transfers out because they do have to request the action of 
transferring money out. And in the last year, six States 
transferred out a total of $300 million. So that is not a lot 
compared to the total. But there is a penalty for transferring 
money out. In the year following a State's transfer of Highway 
Bridge Program funds to another program, the transferred amount 
is deducted from that State's cost to repair or replace 
deficient highway bridge--the factor used to distribute bridge 
funds among the States.
    Mrs. Napolitano. What about the software to be able to do 
that? That is updated, upgraded?
    Mr. Gee. To track the structurally deficient bridges, yes, 
we have that.
    Mrs. Napolitano. And are you able to determine whether or 
not the new technologies being used for the repair that might 
be more efficient, less costly?
    Mr. Gee. That is always a function of ours, to promote new 
technology. We have high-performance concrete and high-
performance steel that we have been promoting for a number of 
years now. So we are always doing research and disseminating 
and deploying new technology to get the best-performing bridge 
that we can.
    Mrs. Napolitano. One of the other questions is the three IG 
reports presented significant and apparent and chronic 
questions about quality and uniformity of NBI data. Yet it is 
critical to many of the oversight decisions that the FHWA does. 
And testimony noted that--taking steps to ensure that the 
division office understand that NBI data filed and submitted 
with significant errors would be returned for immediate 
resolution. When was this done? What is the time frame? And 
have the local authorities been notified to be able to ensure 
that they are aware of the criticalness of this?
    Mr. Gee. Data typically is submitted from the States on an 
annual basis. Even though bridges are inspected every 2 years, 
the cycles are overlapping, so we get data every year. And we 
have been sending data sets back to the States. Our divisions 
now have a tool with which to evaluate the data set that they 
receive from the State before they submit it to headquarters. 
So the divisions are doing the checking, but then we do a 
further check, and we have sent data sets back. There is one 
State right now for which we are waiting on the corrected 
submission.
    Mrs. Napolitano. Is there enough personnel to be able to do 
every 2 years all the bridges that apparently are in need of 
inspection?
    Mr. Gee. On the States' part or on our part?
    Mrs. Napolitano. Well, do we rely on the States to tell you 
whether they have done it? And, of course, there have been some 
reports of the NBI data problems.
    Mr. Gee. We have three States that are currently not 
compliant, and part of it is due to inspection frequency. And 
that is typically because they don't have enough staff to do 
the inspections. They are being required to put together a 
corrective action plan. And in two States in the last half a 
year, we have actually threatened to withhold the approval of 
projects; not on bridge projects, because we don't want to be 
cutting off funding for bridges that we want them to improve. 
So we are looking at leveraging other categories of funds for 
which we will not approve funds in order to get compliance.
    Mrs. Napolitano. So there is a penalty?
    Mr. Gee. I wouldn't call it a penalty. You can call it a 
penalty. It is temporary in a sense, because whatever we are 
withholding approvals on will eventually be spent.
    Mrs. Napolitano. And my time is running out, but there is a 
bridge in one of my district areas that burnt because a 
homeless man was building a fire to keep himself warm. Do the 
bridge construction inspectors consider susceptibility of the 
bridge to destruction due to human factor?
    Mr. Gee. Human factors and other factors. For example, 
there are birds that put droppings on bridges that really are 
corrosive, so we look at all the environmental factors. When 
they look at a bridge inspection, they do document if there is 
an issue.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady.
    Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Duncan for the opportunity to participate in 
today's hearing. And my primary interest today is to address 
the Highway Bridge Program, and I have a statement, not a 
question per se. But all the Committee Members know that the 
HBP in SAFETEA-LU, it required that States expend 15 percent of 
their annual bridge funding on off-system bridges.
    It is my understanding the Committee's current draft of the 
surface transportation reauthorization proposal consolidates 
the HBP and other programs into a critical asset investment 
program, which effectively eliminates the 15 percent annual 
dedicated funding. This funding is critically important to 
States like mine, and Missouri is home to more than 13,000 off-
system bridges, and 2,500 of those are structurally deficient, 
and 1,700 of them are functionally obsolete. If Congress 
decides to eliminate the 15 percent set-aside, then the roughly 
4,200 deficient or inefficient off-system bridges in Missouri 
are going to fall into disrepair.
    I wanted to note that last year I introduced H.Res. 848, 
which is a bipartisan measure, which expresses support for the 
continuation of the off-system bridge program and a dedicated 
funding source, and I appreciate the Committee leadership's 
consideration of my request to include this resolution in a 
future markup, and I look forward to continue the dialogue on 
the possible reinstatement of dedicated funding for the off-
system bridges in future transportation reauthorizations.
    But I have a full statement and would ask unanimous consent 
to just submit it for the record. And again, Mr. Chairman, I 
thank you and Ranking Member Duncan and all the Members of this 
Subcommittee for allowing me to participate. I appreciate it.
    Mr. DeFazio. OK. I note the gentleman's concern.
    With that, Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman, for recognizing me. I 
would like to thank you for calling this hearing.
    Gentlemen, thank you very much for being here and for the 
work that you do.
    I just want to start off by saying about 2 years ago I had 
an experience that one of my State DOT representatives 
suggested that I take a ride with him, and they rented a 
bucket, and I went up in the bucket under one of the bridges 
that, frankly, was one of the main bridges that I drive by 
every day,and my wife and the kids drive over every day. He 
said, take a hammer and tap on that concrete. And I did, and it 
was quite sobering to see chunks of that concrete fall. And 
this is one of the--you know, the bridges that I would never 
have known, I mean, basically that most of the traffic in my 
community drives back and forth on.
    And the point of my question--maybe it is a comment, I am 
not sure--my concern is this: We continue to build more bridges 
every year because everyone wants to have more bridges, better 
bridges. And we continue--as we do that, we spend more money, 
and then we continue to need to repair the bridges, and that 
costs more money with each passing year to repair the old 
bridges. And much more, it seems, of our money goes to 
repairing bridges that already exist, that already have 
defects, building new bridges, and we are not--the States are 
not spending the money on the maintenance, you know, that needs 
to be done.
    I am from upstate New York. We salt our roads. It has a 
devastating effect on our bridges. What it does, it eats away 
at the concrete, the rebar. I mean, it really has a devastating 
effect on that. And I guess, again, I am not sure if it is a 
comment or a question, and, Mr. Gee, I will pose it to you, is 
are we doing enough in terms of the preventative maintenance? I 
mean, are we spiraling out of control? Are we going to be able 
to have enough to appropriate enough money basically to meet 
the needs of building new bridges where they are needed, 
maintaining the bridges that already exist, and then doing the 
preventative maintenance to ensure that we don't have problems 
into the future saving money? Because I think the States don't 
have the money to do the preventative maintenance they need to 
do.
    Mr. Gee. Thank you for the question.
    Maintenance in general is the responsibility of a local or 
the State agency. But as was noted earlier, we are allowing 
systematic preventative maintenance and preservation activities 
to be paid for with Highway Bridge Program funds, and that is, 
again, trying to get the best return on the longer service life 
that we can out of our bridges.
    Now, in the research program we have actually been working 
on design and material research to come up with a 100-year-life 
bridge. Right now we are shooting for 75 years as the design 
life. We have research under way for 100 years. But on the 
maintenance side there is a requirement on our overall program 
that the States maintain whatever Federal funds have been put 
into, whether it is a bridge or a roadway, and we actually 
require certification from the State to that effect, and we 
follow up.
    Mr. Arcuri. Are we going to be able to continue to meet the 
needs of the bridges that we already have, do you think, into 
the future?
    Mr. Gee. In the conditions and performance report that we 
submit every 2 years, there is a note that says if we continue 
funding at our current level, the deficiencies will go up.
    Mr. Arcuri. Mr. Kerley, do you have a State perspective on 
that?
    Mr. Kerley. Well, one, I agree with King's comments that 
the States work very closely with the FHWA. The flexibility in 
the program to use money for maintenance and preventative 
maintenance has helped the States tremendously.
    There is probably in the last 3 years a renewed interest, I 
will say, in preventative maintenance. The FHWA and the States 
have worked together to form regional groups working together 
to concentrate on preventative maintenance; the States and the 
FHWA in the last 5, 10 years emphasizing a more asset 
management approach to try to address those maintenance 
problems.
    I assume where you were probably was under a leaky joint 
that maybe, had it been fixed at a time, you wouldn't have had 
concrete come off when you were under that bucket truck there.
    So there is a renewed interest, and we have worked very 
closely with the FHWA to come up with new materials and new 
techniques hopefully to address the problems we have.
    Mr. Arcuri. I am going to put you on the spot for 1 second, 
one question. Can we do more on the Federal side to help the 
States with the preventative maintenance?
    Mr. Kerley. Yes, sir.
    Mr. Arcuri. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman and Ranking Member, for 
this. And thank you all for the work that you do. It is 
incredibly important.
    And I see the Chairman joined us, and I am sure he will 
eloquently remind us all numbers, inspections and all that, on 
that hot day in Minnesota, that was a father not getting home, 
that was a daughter that will never get home when that bridge 
collapsed. And I think that renewed sense of importance on 
this, it is unfortunate it took a tragedy like that to do it, 
but all of us feel it.
    So I have just a few questions, and we see this playing out 
in the States, and Mr. Arcuri might be able to help me with 
this. We have got another bridge across the Mississippi in 
Winona, Minnesota, Highway 43, that was closed in the 
inspections that followed the I-35W bridge. It was a gusset 
plate issue, the same thing. It ended up being--I am glad we 
got the inspections done, but those types of situations, there 
was a 100-mile detour for folks that were put along. It is 
scheduled to be finished over the next 5 years for replacement. 
The State has no plan on how to be able to afford such a thing. 
There is an editorial, and I think rightfully so, out of the 
Winona daily paper taking all of us to task on this.
    My question is how are we as a country prepared to handle 
this issue; structurally deficient, obsolete, all of these 
things? It is only a matter of time before it is another one in 
the river or something. And so my question is are we--and this 
is coming to you, and I think Mr. Arcuri's question was good--
are we doing enough to have an honest discussion with the 
American public about what it is going to cost to replace and 
repair and keep our bridges up to where they need to be for 
safety, to move commerce and all of that?
    So I would ask each of you, if you could, and I know it is 
somewhat subjective, but I just want to know, are we going to 
get there? Because I have no faith right now, and the editors 
of the Winona paper have no faith, that we are working together 
to address this issue on that one bridge in one small town in 
one State. Couple that by thousands across the country. So if 
you want to just respond, I would certainly be wanting to hear.
    Mr. Come. Thank you.
    Our work has been focused not on how much should be spent 
or where the money should come from, but how to more 
effectively spend the money. So I would say in answer to your 
question that first and foremost we need to be able to 
effectively assess how well we are spending the money we have 
now. Doing that in the case of the Highway Bridge Program 
requires getting better information on funds directed towards 
structurally deficient bridges.
    In our work we found that systems and tools weren't in 
place to do that. Management has told us that it will be hard 
to develop better tools. We recognize that these tools aren't 
easy to develop, but without better tools we won't be able to 
better utilize the funds we have now. And likewise, on the 
inspection side, no matter how much we are putting towards the 
bridges, we need to have good inspection programs.
    And so consistent oversight of the State programs is 
important. So from our side it would be getting improvement in 
those tools that will enable us to stretch every dollar we 
have.
    Mr. Gee. On larger bridges, oftentimes a State doesn't have 
enough money in the bridge program to do all of the big bridges 
that it has, so oftentimes we find a State will kind of bank 
the money until they get enough. And then in many cases, 
because of the size of the project, project financing has got 
to be part of the consideration. A number of States have used 
that and used Federal-aid dollars on GARVEE bonds to pay back, 
because you need a chunk at one time in order to do a bridge, 
and then you can pay it back over the life of that bridge with 
GARVEE bonds. Our concern is the level of debt service that a 
State DOT may be incurring in order to do that.
    Now, to go back to the other part of the question, I think 
for the past 10 years or more, even before the Minnesota 
bridge, there have been articles about the state of 
infrastructure in this country. ASCE does a report card. So I 
think that there is a lot of information out there. The 
challenge that we have is that we actually don't have a crisis 
today, but if we go forward without addressing it, we will have 
a crisis in the future.
    Mr. Herr. Mr. Walz, some of the work that we have done 
suggests a need to stand back and prioritize and look at the 
broader Federal interest. So in a case of a bridge like this, 
if something like that were in place, it would help a State 
have a sense of what some of those priorities are. And in the 
sense of a large project, say a megaproject like that that is 
more costly, that may be something that could rise up if an 
approach like that were to be taken. But clearly there is 
certainly a difference between the funding levels that are 
available and the needs that have been identified as well.
    Mr. Kerley. The State bridges and the national bridges are 
getting older. As I indicated, in Virginia the average age of 
our bridges are 43 years. In my testimony we have over 1,700 
structurally deficient bridges; we have over 4,000 that are 
getting ready to get into that area.
    I agree with King's statement, we don't have a crisis right 
now, but I think you can look on the horizon and you can see 
that more funds are going to have to be put into maintenance, a 
shift, I believe, to asset management to try to maximize as 
much as possible. In the large bridges--that is why I think you 
see in some of the reports that in the large urban areas, maybe 
your urban area bridges, the number of deficiencies are going 
up because they are more expensive, there is more traffic. It 
is harder to do those, and so you are trying to extend those 
lives as much as possible.
    Mr. Kerley. The 2006 DOT's condition report said $8.7 
billion in capital investment annually is needed to maintain 
the bridge condition at the current level and $12.4 billion was 
needed to actually improve the conditions to a level.
    So I believe the States are trying to work closely with the 
Federal Highway Administration and to identify and take the 
appropriate action, whether to post a bridge or close a bridge, 
to ensure the safety for the traveling public.
    Mr. Walz. Well, I appreciate all your work. And, as I said, 
again, I think it is for us up here, realizing one of the 
attributes of leadership is vision. And let's hope we have the 
vision to not get to that crisis point, to have the courage to 
get it done before we get there.
    I yield back.
    Mr. DeFazio. I would recognize the full Chairman now.
    Mr. Oberstar. I just want to intercede at this point, 
because Mr. Walz asked an important question, and I don't think 
he got the full range of answer that he should have received.
    The Minnesota legislature overrode a Governor's veto of an 
increase in the gas tax by 5 cents. And the Minnesota DOT 
dedicated nearly half of the new revenue to bridge replacement. 
That is how States can do it. They can dedicate.
    But that underscores another problem, Mr. Chairman, that we 
have dealt with in this Committee several times and we deal 
with in our new authorization bill. And that is, the current 
law gives States authority to transfer up to 50 percent of 
their bridge funds to other purposes. And they have done it. 
Then they turn around and complain that they don't have enough 
money for bridge replacement, when they have used their flex 
authority to flex money out of the bridge program to something 
else.
    And then they complain--they, the State DOTs--complain to 
us when we try to tighten the noose on them and say, ``You 
first tell us, first develop a 6-year bridge replacement 
program, bridge inspection and maintenance and replacement 
program, with annual benchmarks of achievement. And then you 
report back to the U.S. DOT and to this Committee and to our 
Senate Committee on your achievements and your accomplishments. 
And if you have accomplished your goal year by year of bridge 
inspection, maintenance, replacement, then you can flex the 
money to something else.''
    The bridges are the most costly structures in our Federal 
highway program. Those 545,000 bridges on the National Highway 
System, of which half now are structurally deficient or 
functionally obsolete, carry half of the bridge traffic of this 
country. And you can't shut them down, you can't blow them up 
and turn them into something else. Some of those are historical 
structures. That is a problem for the States to resolve.
    But States have not accepted their responsibility, 
generally. There are some States that have excellent records, 
others that are just deplorable.
    In 1987, I held hearings on bridge inspection and bridge 
safety on the 20th anniversary of the Silver Bridge collapse. 
And a professor of bridge engineering testified at that table, 
saying, bridge inspection, quote, ``is in the Stone Age. We are 
dragging chains over bridges to listen to structural 
deficiencies.''
    Twenty years later, they are still dragging chains over 
bridges to detect structural deficiencies. Meanwhile, we have 
given tens of millions of dollars for studies, for evaluation. 
There are university research centers that are studying it. And 
we are still in the Stone Age. That is unacceptable.
    I yield back.
    Chairman DeFazio has taken leave. Let's see. Mr. Duncan, do 
you have----
    Mr. Duncan. Well, I have already asked most of my 
questions, Mr. Chairman, but I will take just a moment to--Mr. 
Herr, you just heard the Chairman talk about how States can 
move up to 50 percent of their bridge funding.
    Do you have an estimate as to what percentage, on average, 
most States are transferring of the bridge funding out of the 
bridge program?
    Mr. Herr. When we did our work in 2008, I think the figure 
over a 7-year period was in the $2 billion to $3 billion range. 
What we noted in that report was that one of the States that 
made more use of that flexibility actually had its funding made 
up through the equity bonus program. But we----
    Mr. Duncan. I am sorry. I didn't hear the last thing you 
said.
    Mr. Herr. One of the States that had utilized that 
opportunity to do flex funding out of the bridge program, 
Pennsylvania actually made up that funding that it lost through 
the equity bonus program. We noted that in that report.
    But if need be, if the other witnesses don't have that 
information, I could get updated information for you.
    Mr. Duncan. All right.
    Well, we have also seen in the testimony, your testimony 
and others, that you feel there is a lot of important data that 
is lacking, such as comprehensive State and local spending. Can 
you really adequately judge the impact of this program without 
that kind of data?
    Mr. Herr. We think it would be very important to have that 
complementary data to have a full assessment of what the 
program is accomplishing.
    Mr. Duncan. We heard earlier that, while the Federal 
funding was around $5 billion and the States had provided $10.5 
billion--how much is being provided by local governments on 
bridge work?
    Mr. Herr. I believe, but I will defer to Mr. Kerley, but I 
believe that that $10 billion figure----
    Mr. Duncan. The 10.5 was State and local?
    Mr. Kerley. That was the total for all levels of 
government, sir, the 10.5. That included the $5.1 billion----
    Mr. Duncan. Oh, that includes the Federal funding, too?
    Mr. Kerley. Yes, sir. Yes, sir.
    Mr. Duncan. Oh, OK.
    Mr. Kerley. So it is about double the Federal funding.
    Mr. Duncan. All right. Well, then how much of the $5 
billion, then, is coming from the States and how much from the 
local governments? Do you have that?
    Mr. Kerley. No, sir, but I can get that for you. We will 
get back to you on that.
    Mr. Duncan. All right. Thank you very much.
    Mr. DeFazio. We would turn now to Ms. Markey.
    Ms. Markey. Yes, thank you, Mr. Chairman.
    I have a district in northern and eastern Colorado. We have 
36 bridges that have been deemed structurally deficient by our 
State DOT. And, actually, one bridge, a couple of years ago, in 
the small town of Ordway, there was a fire in southeast 
Colorado. Two firefighters were killed because the truck that 
they were in went over a bridge and it collapsed, and they 
never even got to the fire. So it is a critically important 
issue.
    As I am reading this report, it says an astonishing number, 
$98.9 billion, could be invested immediately into looking at 
our bridges. But I am intrigued by the title of this report, 
which says, ``FHWA has taken actions but could do more to 
strengthen oversight of bridge safety.'' And I think one of you 
mentioned that you are doing quite a bit of oversight of State 
programs.
    And so the question in my mind becomes, you know, we have a 
limited amount of dollars, and there is a lot of oversight 
being done. And Federal authorities are overseeing State 
programs that are overseeing the bridges.
    Can you talk a little bit about how extensive is the 
oversight role, the Federal Government to the States? I mean, 
Mr. Oberstar said that the States are not always doing their 
job, and there is a Federal role. But, you know, I wonder, do 
you find much duplication of effort in an oversight role? How 
much money is going towards those kinds of things as opposed to 
actually, you know, putting in the new bridges?
    And so I just worry about, when we talk about more 
oversight, what we really want to do is get the money to repair 
the bridges, instead of, to my mind, overseeing Federal 
programs that are supposed to be doing that already.
    So can you talk just a little bit about the extent of your 
oversight role?
    Mr. Gee. I think that we are actually a very, very small 
percentage, in terms of the administrative cost, of the 
oversight that we provide to the States. Principally, we have 
one bridge engineer in each of the 50 States and District of 
Columbia and Puerto Rico. We have a complement in headquarters 
of about 15 bridge engineers and another complement in our 
resource center, of about 10. So, administratively, it is not a 
large amount of money.
    Ms. Markey. How much of your budget, would you say, is 
actually going towards helping States actually fund projects to 
replace or repair bridges?
    Mr. Gee. I would say the vast majority of our 
administrative cost is for project delivery, working with the 
States. Those bridge engineers I referred to, their purpose is 
not solely on compliance. They actually have to review bridge 
plans and they have to look at the bridge program, not just 
compliance.
    Ms. Markey. OK.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. Ms. Richardson, I regret that we went out of 
order there. There was a slight clerical error. So, Ms. 
Richardson.
    Ms. Richardson. No problem, Mr. Chairman. I will just keep 
the chip in the bank.
    OK, Mr. Gee, much has been talked about in terms of the 
States utilizing flexibility. Can you provide to this Committee 
a State-by-State list for the last 10 years of which States 
have taken bridge money and used them for other sources?
    Mr. Gee. We can certainly do that, yes.
    Ms. Richardson. OK. Thank you, sir.
    My second question is, in 2009 the FHWA distributed 
approximately $5.3 billion. We have been talking about that 
today. However, the GAO report issued in September 2008 found 
that it's troubling and there is a flaw; in fact, because many 
of the bridges and the projects, really the deficiency status 
is not being sufficiently rated or used.
    Can you talk a little bit about that?
    And, in particular, what is of my concern: When I first 
came on board, before I was even sworn in, Chairman Oberstar 
was going through the Minnesota bridge situation. And in my 
district, we have the Gerald Desmond Bridge, which brings over 
15 percent of the entire Nation's goods. And it has a diaper 
underneath it, and it is my understanding it has an F rating. 
And yet we can't seem to get funding to replace the bridge.
    So if you could explain to me this whole thing about the 
ratings and why they are not being used or why you are not 
enforcing that they be used, in terms of priority of funding.
    Mr. Gee. The ratings are used, but, as I said earlier, our 
programs are structured such that it is the States that 
prioritize their projects. We determine, when a State puts a 
project at the top of the list, whether, in fact, it is 
eligible for the given category of funds that it is being 
targeted for. So our role in terms of the delivery of projects 
is to make sure that they conform to the requirements within 
each program category.
    In the Highway Bridge Program, the sufficiency rating and 
deficiency status are used to determine whether a bridge is 
eligible for replacement or for rehabilitation.
    Ms. Richardson. But if, your example, a State--and I will 
defer to you also, Mr. Come, as soon as I finish this next 
question, because it appeared you wanted to say something.
    But you don't provide any oversight if a State decides to 
repair a bridge of a level D and bypasses a level F? You don't 
provide any oversight or correction to that?
    Mr. Gee. Not on a bridge-by-bridge basis. We may look at an 
overall program and say it may seem a little out of balance. 
But after we talk about it, it is still the State's prerogative 
to choose.
    Ms. Richardson. And why is it the State's prerogative if 
you have an F-rated bridge that is getting ready to collapse?
    Mr. Gee. Because in a section of the law, it is 
specifically spelled out that we do not override States' choice 
of projects.
    Ms. Richardson. OK.
    Mr. Come, based upon your report, do you have any 
suggestions or areas that we could focus on here in this body 
to eliminate this problem that you noted in your report?
    Mr. Come. I believe that was the GAO report you are 
referring to. But our work would point to the need to establish 
data-driven, risk-based approaches so that the highest-priority 
risk can be addressed.
    Ms. Richardson. OK. You were right, sir.
    I am sorry, Mr. Herr. It was your report I was referencing.
    Mr. Herr. Yes. One of the points that we have made in a 
number of different reports over the years is that standing 
back and focusing on what the Federal interest would be would 
help perhaps prioritize fixing a bridge like the one you just 
described. If mobility, for example, movement of goods, is a 
key criteria, that would help prioritize things and ensure that 
a Federal interest--in this case, one that might impact goods 
movement that affects many consumers in the country and 
businesses--could be given a certain amount of attention.
    Ms. Richardson. I yield back the balance of my time. Thank 
you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady.
    With that, I would turn to the Chairman of the Full 
Committee, Mr. Oberstar, for his questions.
    Mr. Oberstar. Thank you very much, Mr. Chairman. I am 
delighted you have called this hearing. And thank you and Mr. 
Duncan for participating and working together to put it 
together. But it is a little depressing to read this report and 
see we are where we were, in many cases, 25 years ago.
    I am going to ask to call up on the screen the Sandstone 
Bridge. Now, unfortunately, you can't see it very well in this 
picture, but that is the underlying steel structure. This 
bridge was built in 1948. It is about 450 feet over a very 
lovely canoe and kayak river in the central part of my 
district. It is the subject of the Long-Term Bridge Performance 
pilot program that we included in the current SAFETEA 
legislation. It is one of four, I think ultimately six or 
seven, bridges.
    What I wanted--I took this with my BlackBerry. And there 
are wires hanging down from the bridge deck above. And those 
wires are connected to the rebar--right in there--to the rebar 
in the bridge decking itself. The bridge was redone about 20 
years ago.
    If you would go to the next one, please.
    There is a snooper crane underneath the bridge. And they 
are attaching probes and wires to the underside of the bridge, 
to the bridge structure itself, the steel structure that you 
see in front of you. And if you notice the graffiti on the 
lower right, just a little bit above the crane arm, also on the 
right of the screen, right there--and there is more, there is 
much more graffiti--that steel is so corroded that one of the 
bridge engineers said, in a bit of humor, ``Thank goodness for 
the graffiti. It is helping to hold the bridge together.'' That 
shouldn't be.
    The serious part of it is that this bridge is subject to--
and then underneath you see the very slow-moving river--is 
subject to severe freeze/thaw cycles, heat/cold expansion/
contraction. And it is a perfect subject for the kind of 
analysis that bridge engineers need to do, want to do, to 
better understand bridges.
    What I don't have, unfortunately, is on the bridge deck 
itself a picture of the ground-penetrating radar machine that I 
actually powered over a good portion of, to see for myself the 
wavelengths of the radar and the anomalies when it strikes 
corroded rebar or water that has accumulated within the bridge 
itself around rebar that then sends this anomaly.
    So now they can cover the entire length of the bridge, find 
corrosion, drill a hole to the corroded rebar, attach a probe 
to it, bring the probe to the edge of the bridge, and then 
study the structure to get a better understanding of what is 
happening internally in the bridge.
    Now, the George Washington Parkway on the Virginia side of 
the Potomac, under the direction of the Park Service, has four 
bridge overpasses that were done about 20 years ago, I think 
now, 18 or so. Using new technology, using plastic, pinhead-
sized particles in the concrete that would collapse with the 
heat of the concrete setting--there we are. There is the 
ground-penetrating radar machine. Now, that is the technician 
pushing it. They had untrained technician Oberstar pushing it a 
little bit later. But those little dots on the road surface are 
the points where rebar has been detected, and now the screen is 
showing the anomalies.
    Before they began this part of the test, Mr. Chairman, the 
engineers and inspectors actually dragged chains over the 
bridge, put their ear down and listened to it to see, ``What is 
happening in that bridge?'' So, now they know where it is. Then 
they can drill holes, attach probes to the corroded rebar, and 
see what is happening to it and see the progression of 
deterioration.
    But going back to the GW Parkway bridge, those little 
plastic globules then heated with the setting of the concrete, 
collapsed, and provided a very tight concrete surface. But they 
also included probes attached to the rebar, powered by solar 
panels alongside those four overpasses, that provide cathodic 
protection to the rebar. I drive that at least four times a 
week, and I--no, eight times, once in the morning, once in the 
evening--I have not noticed a crack in that bridge.
    And I can tell you, I get a pretty good look at it because 
traffic is so slow on that bridge. You are standing there for 5 
or 10 minutes at a time, and you get a chance, at least I do, 
to look out the window and see what is happening to the bridge 
surface. I realize that is not a normal practice for commuters, 
but then I am a transportation guy and that is what I do.
    Now, having those probes, having the ability to track--oh, 
yeah, there is another--there is the ground-penetrating radar 
machine up close.
    So this is the Rutgers Center for Advanced Infrastructure 
and Transportation, Long-Term Pavement Performance Program. 
They are doing the inspecting, instrumenting, testing, and 
monitoring of the bridge, and doing it in at least now six, I 
think, other locations. This is the kind of work that we need 
to have on all of our bridges across the country.
    And the replacement I-35W bridge has all these sensors 
embedded in the bridge to detect expansion, contraction, 
freeze/thaw cycle, penetration of moisture into the concrete 
structure itself, cathodic protection for the rebar in the 
bridge. They have sensors that can detect wind pressure on the 
bridge.
    Now, if airplanes have technology onboard the aircraft to 
tell you the tire pressure onboard that aircraft, so before it 
comes down, if there is a problem, you know what you have, we 
ought to be able to do that on the ground on a structure that 
doesn't move. We ought to be able to apply the lessons from 
other modes of transportation from one to the other.
    Now, if, as we well know, the reality is that deck life 
averages 25 years and you have corrosion delamination, you have 
expansion/contraction, corrosion of rebar, then there are 
practices that can be put in place to protect that huge 
investment we make in these bridges, like cover thickness, 
epoxy coating on the rebars, carbon fiber or aramid fiber 
protection before you put on the final seal coat of the bridge.
    In the European Union, I met 2 years ago with the ministers 
of transportation for the EU at their annual session. And they 
discussed membrane layers that are applied before the final 
seal coat is applied that have resulted in substantially 
extending bridge deck life.
    So I want you to tell me what new things you are doing, 
what new ideas you have encountered, and what you are 
recommending for the future of bridge integrity and 
strengthening and inspection and lengthening the deck life and 
structural life of bridges.
    Mr. Kerley? You look like you are ready to talk.
    Mr. Kerley. First of all, sir, I appreciate you pointing 
out the Long-Term Bridge Performance Program that the FHWA has 
and the support you have given to that. It is an excellent 
program, and AASHTO supports it and have worked very closely 
with the FHWA on that.
    I think we are doing the same things that you see the 
European people are doing. As Mr. Gee mentioned earlier, high-
performance concrete, high-performance steel, non-corrosive 
reinforcing steel, the next generation, maybe after epoxy 
coating, those are things that we are looking at.
    The different things that were put on the I-35 bridge are 
all things that are available to States to do. The question is 
which bridges to put it on, how do you use it, what do you do 
with the data, how do you do all those type of things.
    But Turner-Fairbank and the Federal Highway Bridge Program 
have worked very closely with the States. Since the I-35 bridge 
collapse, we have looked at various different things that can 
be done. I know the FHWA is looking at different inspection 
techniques to be used.
    But one of the things, to be honest with you, it comes down 
to some funding concerns--you know, which bridges do you put it 
on? What is the initial cost? What do you do with the data? 
Those things you are looking at.
    But the States are open to any new technologies we can use. 
One aspect of the AASHTO bridge committee's strategic plan is 
looking at new materials and new methods to extend the life of 
the bridge structures that we have.
    Mr. Oberstar. And that is what this project is aimed at.
    Mr. Kerley. Yes, sir.
    Mr. Oberstar. It is not just the Sandstone Bridge in 
Minnesota, which I said was built in 1948. Structural steel is 
in better shape, although it is rusting and the graffiti is 
covering up some of the rust. The bridge decking itself has a 
20-year lifespan, or a 25-year.
    And what they are attempting to do in this experiment is to 
see whether cathodic protection, which has been successful in 
the pipeline program and which has been successful in the GW 
Parkway's bridge structures, can work in bridges already in 
place and extend the life of that deck surface.
    Mr. Kerley. We have used cathodic protection before on 
bridge decks. And also, on the James River Bridge in Virginia 
on 95, there is cathodic protection in the pier caps in there. 
When we renovated that bridge about----
    Mr. Oberstar. Was that done on the Wilson Bridge, as well?
    Mr. Kerley. I do not believe cathodic protection was used 
on the Wilson Bridge, that I am aware of, no.
    But so, all the different things that you have mentioned 
are things that States are working on and working very closely 
with the FHWA and their Turner-Fairbank.
    And we have the opportunity to go to Europe a little bit 
and talk with our counterparts over there. And we try to 
borrow, steal anything we can to make what we do better, sir.
    Mr. Oberstar. Well, thank you. Glad you are on top of it.
    Mr. Herr, Mr. Gee, whoever else wants to comment?
    Mr. Gee. I think from the very earliest days of Federal 
Highways, back 100 years ago, one of our missions has been to 
promote new technology. We have a very active program of 
promoting and disseminating information and best practices that 
we learn. In our research program, we are pushing out new 
technology.
    And we find technology, as Mr. Kerley said earlier, from 
overseas, and we bring it back to this country, and we 
disseminate it and we implement it. But we also look for 
private sector innovations. Under the Highways for LIFE 
program, we have an active program with some private companies 
to accelerate the commercialization----
    Mr. Oberstar. Yes, I think Parsons Brinckerhoff was part of 
this----
    Mr. Gee. Right.
    Mr. Oberstar. --consortium. They are participating.
    Mr. Gee. Right.
    Mr. Oberstar. And I am sure there are many other 
engineering companies who have worldwide presence who are also 
contributing their broad experience to this Long-Term Bridge 
Performance Program.
    Mr. Come?
    Mr. Come. Thank you, Mr. Chairman.
    Over on the Inspector General's side, we have been looking 
at improvements to business processes. One thing we have called 
for is improvements in the corporate risk-assessment process in 
FHWA, looking at similar programs set up in other agencies that 
have to deal with either thousands of motor carriers or several 
hundred large airlines. So we are looking for them to use, at 
the corporate level, information they have to identify high-
priority bridge safety risks.
    Another business process we looked at was the attempts to 
encourage more bridge management system use among the States. 
These are computerized processes that can improve asset 
management. FHWA doesn't mandate that these systems be used, 
but we recommended that they gain information on how the 
different States are using these systems, so that they could 
then target their educational and training efforts at the 
States that could more fully utilize these computerized 
systems. And they have agreed with those recommendations and 
are implementing them at this time.
    Mr. Oberstar. Yes, Mr. Herr?
    Mr. Herr. Yes, Mr. Oberstar, we highlighted a similar 
point, and Mr. Come mentioned, and we also had talked about in 
our report, the element-level inspections that are being done 
to assess the structural integrity of bridges. So, the other 
side of the question that you raised is to make sure that 
States are state-of-the-art in that area, and the Federal 
Government, as well.
    Mr. Oberstar. Well, let me then pick up on that point and 
move to another issue, and that is calculating bridge load 
ratings and also understanding better how to conduct bridge 
inspections.
    One of the salient factors cited by the NTSB in the I-35W 
bridge collapse was that the gusset plate that failed was 
incorrectly designed. Bridge inspection, up to that point, had 
assumed the design and engineering integrity of the bridge 
itself. So we will start from whatever was built, that it was 
designed properly, it was built properly--no more, no longer.
    It is stunning to go to the NTSB offices over at L'Enfant 
Plaza and see this replica of the gusset plate, a huge eight-
foot by six-foot--it is not the steel; it is a replica of it--
and see how big this piece of steel should have been. And that 
it should have been an inch thick, not a half-inch thick.
    So now bridge engineering has to include--and I would hope 
that that would be part of the IG report--in conducting bridge 
inspections, to actually go back to review the design and 
engineering plans for the bridge itself and determine whether 
they were proper, whether they were done according to proper 
engineering practice.
    If it wasn't designed and built properly, how can you 
proceed to the next stage and determine load ratings on that 
bridge? If you are counting on a one-inch-thick gusset plate, 
of which there are eight I think, or were, on that bridge, and 
if any one of them fails, the whole bridge fails, then you 
can't calculate a proper load rating in the real-world 
application, correct?
    Mr. Kerley, you are a practitioner.
    Mr. Kerley. Yes, sir, I agree with you. Since one of the 
recommendations that came out from the NTSB report was to look 
at the quality control, quality assurance of designs when they 
are initially done, we are working very closely with the 
Federal Highway Administration. They have come up with a draft 
that we are reviewing right now to ensure that what is designed 
is appropriate for the design at that time based on the design 
code.
    So, hopefully, we will be able up front to ensure that the 
design is correct. And then you take from the design to ensure 
that the fabrication is correct. Once it get gets out in the 
field, when the bridge inspector is looking at that, he is 
looking at the properly designed, properly constructed bridge 
for that location.
    Mr. Oberstar. And then against that backdrop, if the IG 
report says that 40 percent of load ratings do not match the 
information submitted by States, then we are in a dangerous 
zone, if you will, of bridge use.
    Mr. Gee?
    Mr. Gee. After the NTSB reports were issued and 
recommendations were made, we did issue a number of technical 
advisories, one of which provided guidance on how to consider 
and analyze gusset plates. That is providing a tighter control 
of how inspections are done.
    I think the risk-based approach to compliance reviews will 
include a tighter definition of how States conduct load ratings 
and how all of that procedural work is going to be tightened 
up.
    Mr. Oberstar. I am a little troubled by use of the term 
``risk-based inspection practices,'' because it tends to have 
too much reliance on paper rather than on hands-on experience, 
evaluation. Risk-based safety practice in aviation and rail and 
in maritime are common practices, as they are in highway. But, 
as one FAA maintenance inspector said, ``You have to end the 
paperwork and be on the shop floor. You have to put your hands 
on the engine, you have to put your hands on the airframe to 
understand what is really happening with that aircraft.'' And 
the same thing goes with bridges; you have to have hands-on at 
a certain point.
    Mr. Gee. That is why, in 2005, when we revised the 
regulations, we included a requirement for fracture-critical 
bridges. Previously, it was an administrative policy, and we 
added it in the regulation to strengthen the requirement for 
hands-on inspection of fracture-critical bridges.
    When we talk about risk-based, we are not talking about 
substituting paper for the hands-on inspection. The inspection 
still has to be hands-on. What we are talking about is looking 
at the frequency. Given that there are issues of adequate 
staffing for inspections, the question has come up about how 
frequently a bridge should be inspected. In Europe, they have a 
sliding scale for timing of the inspections, and we are 
considering that, but we are considering it carefully.
    Mr. Oberstar. All of this is very important for the future 
of transportation as we shape the bill that I had intended to 
have passed through the House by now but for other impediments 
from other sources, the Administration included.
    We have to get this thing right. We have to have a sound 
program for adequate numbers of Federal and State inspectors 
for the bridge program, adequate design and engineering 
standards, adequate evaluation of existing bridge structures, 
and employing all the non-destructive testing technologies that 
are available, such as those displayed just a moment ago on the 
screen, and protect this massive portfolio of bridge structure 
in this country.
    A $98 billion backlog of costs for repair, replacement, 
reconditioning of bridges--it is immense. Greater than that is 
the cost of not doing it, as we saw with I-35W. The diversion 
of traffic around that bridge, the diversion of people, goods, 
and movement daily, that is a huge cost to the economy. Far 
better to make that investment in the bridge and do it right to 
begin with.
    Mr. Gee. We agree with that, Mr. Chairman. And one of the 
issues that I have raised internally with our bridge staff is: 
An emergency shutdown of a bridge is failure. Even though it 
doesn't fall down, if we close a bridge unscheduled, in an 
unscheduled manner, that is failure.
    So we have an initiative on the way, working with the 
States right now, to look at the management processes and how 
the States look at the NBI data and then the element-level data 
to come up with a process to anticipate problems before they 
reach a critical stage.
    Mr. Oberstar. One last question: Has the Federal Highway 
Administration and have States followed up on I-35W? There are 
460 other bridges that were designed at that same time, the 
mid-1960's, and built, with fracture-critical bridge structure, 
meaning that if one major piece fails, the bridge fails.
    I understand or recall that an advisory was sent out from 
Federal Highway to all States. Have all States completed 
inspections of those bridges? And what information have they 
reported back?
    Mr. Gee. We believe that all of the States have complied 
with that technical advisory. There were only a handful of 
bridges that were found to be of concern, and those have been 
followed up on.
    I think the findings from the NTSB report we have also 
disseminated, so that the best information is available to all 
the States, and we are working with them.
    Mr. Oberstar. Mr. Kerley?
    Mr. Kerley. I agree with that. I believe all those bridges 
have been addressed. And as King was saying, we are also doing 
research on the gusset plates. The initial information the FHWA 
and guidance they put out on how we should properly look at 
these things are being followed.
    And then, working with the FHWA, AASHTO, and the FHWA, 
through NCHRP, is doing a detailed analysis and research at 
their Turner-Fairbank on the gusset plate so we can clearly 
define for people exactly what they need do in that regard.
    Mr. Oberstar. Thank you.
    Thank you very much, all of the panel. This is going to be 
a continuing inquiry of the Committee. I apologize to my 
colleagues for proceeding at such length, but, as you can see, 
this is a matter of great passion and concern for me.
    Mrs. Napolitano. [presiding.] Thank you, Mr. Chair. And any 
time that you have questions, I would more than be happy to 
allow for that line of questioning simply because of your 
background and expertise. So thank you, sir.
    Mr. Duncan?
    Mr. Duncan. Well, thank you, Madam Chair.
    And, Mr. Gee, you started to get into something that I 
wanted to go into--just a couple of other questions. And one 
was, you earlier said that you don't have the authority to 
override a State's decision on where they spend their money.
    But, in your oversight role, if one of your inspectors came 
to you and told you that a bridge was very unsafe or very 
dangerous, what would you do in response to that? A moment ago, 
you said there are only a handful of bridges that you feel are 
of concern and they have been followed up, or something to that 
effect. What happens?
    Mr. Gee. That was in response to the Chairman's question 
about the I-35W type of bridges.
    Mr. Duncan. Right. Oh, just that type of bridges.
    Mr. Gee. Right.
    Mr. Oberstar. If the gentleman would yield, that was in 
response to my question about that relatively discrete category 
of 461 or so bridges built at the same time, mid-1960's, with 
this design and engineering. He was not speaking generally.
    Mr. Duncan. OK. All right.
    Mr. Gee. But to answer your questions about what oversight 
we exercise if we are aware of an unsafe bridge, we will go to 
the State and, first, make sure we have the most recent 
inspection report. And if, indeed, it does need to be shut down 
and the State hasn't shut it down, we will basically force the 
State to shut it down.
    There was a bridge in Puerto Rico most recently that we 
have been going around with the Commonwealth on. In that case, 
the city kept reopening it. The Commonwealth was shutting it 
down, the city kept reopening it. So I think we finally got to 
a situation where it is protecting the safety of the motorists.
    Mr. Duncan. All right. And then earlier I mentioned that, 
you know, there are 603,000 public road bridges, but there were 
only--less that 20 percent, or 115,000, carries 71 percent of 
the traffic. So I said, well, we need to maybe make sure we 
concentrate the funding on those more high-volume bridges.
    But what I am wondering about is, how many inspectors at 
the Federal and State level are there devoted to bridge 
inspections? I know they have to be inspected once every 24 
months, unless given a waiver to go longer. How many Federal 
bridge inspectors and State bridge inspectors are there? Do you 
know?
    Mr. Gee. The Federal Highway Administration doesn't own any 
bridges, and so the responsibility of inspecting the bridges is 
on the owners. And the vast majority of the brides are owned by 
the States and locals, and they are the ones that have to have 
the inspectors.
    Now, the Federal Highway Administration does have a core 
group of inspectors to do inspection on federally-owned 
bridges, like the National Park Service and bridges like that.
    I do not have a count of how many State bridge inspectors 
there are.
    Mr. Duncan. How many do you have, Mr. Kerley? Or do you 
know nationwide how many----
    Mr. Kerley. Nationwide, I don't know. But for Virginia, I 
can tell you we do about 10,000 bridge safety inspections a 
year. We have 100 people that are bridge inspectors. And about 
20 percent of our inventory we use consultants to supplement 
our people. And we spend about $22 million a year on bridge 
safety inspections.
    Mr. Duncan. All right. Thank you very much.
    Mrs. Napolitano. Thank you, Mr. Duncan.
    And one of the things, Mr. Gee, you did mention was that 
you have looked at some of the new technology in Europe and 
other areas, and are also looking at the outside, the public 
sector. What about UTC, the University Transportation Centers, 
are they being part of trying to find the solutions for some of 
the issues?
    Mr. Gee. We very much work with the University 
Transportation Centers. Oftentimes, they have the funding for 
different areas of work that they have identified, so we try to 
align what their interests are with what we consider to be the 
national needs. We work very closely with the individual 
centers to see what they will come up with.
    We also use the individual university centers for training 
and getting information back out to the local governments.
    Mrs. Napolitano. Does the Department fund the universities?
    Mr. Gee. Yes, they do.
    Mrs. Napolitano. And you wait for them to tell you what 
they are going to look at?
    Mr. Gee. Often, they will identify the area of 
concentration that the consortium is putting forward. Part of 
the RITA, the Research and Innovative Technology 
Administration, passes on which UTCs get funded.
    Mrs. Napolitano. But if there is specific technology that 
you are looking for, do you not suggest to them that they need 
to start looking at what can be used, what is being used in 
Europe, and then apply that?
    Mr. Gee. As part of the international scanning program that 
we have, there is an implementation plan that has to be part of 
the effort so that we don't just find something and it 
languishes. They have to individually identify which are the 
best mechanisms to advance that technology, and sometimes it 
may involve a UTC.
    Mrs. Napolitano. Well, maybe they can begin to work and 
look at European methods and test--or at least provide you with 
some information as to the validity.
    Director Herr, none of the State DOTs you visited in 
preparing your 2008 report were able to provide comprehensive 
data on total State and local investments in bridges. In the 
GAO's work since that report, have you found any evidence that 
States are now better able to track and report State and local 
bridge spending?
    And I would also like for Mr. Kerley to comment on that.
    Mr. Herr. I am not aware of any change that has occurred 
since 2008 when we issued the report.
    Mr. Kerley. We set our budget, so we know what is set in 
the budget. But, as I think Mr. Gee mentioned earlier, we do 
use multiple funding on some projects, and we don't have a 
system now where we actually go in and pull out to report what 
is in bridges and what is in those different categories.
    So we will probably spend more than what we actually have 
budgeted in the bridge program that are in other programs 
included in other projects.
    Mrs. Napolitano. Is there a standardized tracking system 
that is used in the industry to be able to input information 
and be able to keep track of the status and the funding?
    Mr. Kerley. Not that I am aware of. And I think that is 
what showed up in one of the reports here that came out. We 
just don't track it from that viewpoint. If we are not using 
bridge funds, it may fall in in a different category. And there 
may be bridges on there that may not get picked up. It doesn't 
automatically pull it out when you want to--for instance, you 
would query the system on all expenditures on bridges. It may 
have been included in a segment of a road construction, and you 
wouldn't have pulled it out in that regard.
    Mrs. Napolitano. Well, with the advancement of technology 
and innovative software, you would think there would be 
something to be able to provide the States the ability to do 
some of that tracking.
    And, also to Mr. Herr, you have testified on GAO's previous 
finding that, since the mid-1990's, increases in Federal 
highway funding have been accompanied by decreases in State 
highway spending and have recommended Congress consider a 
maintenance-of-effort requirement on States that receive 
Federal highway funding.
    Mr. Kerley has stated in his written testimony that an MOE 
provision would reduce funding in an already-strained time. 
Wouldn't an MOE increase, rather than reduce, highway spending?
    And based on your experience, would you have reason to 
believe the States would reduce their State-level spending if 
it required them to leave Federal funds on the table?
    And, in this regard, isn't an MOE requirement fundamentally 
similar to the required non-Federal share, which is a long-
established requirement for most Federal aid highway programs?
    And Mr. Kerley again or anybody else who would like to 
comment.
    Mr. Herr. Yes, one of things that we have noted over the 
years based on some prior work the GAO has done is that there 
has been some reduction in State spending. The key concept 
behind maintenance of effort is that States maintain their 
level of expenditure.
    And, in fact, with the Recovery Act, with the maintenance-
of-effort requirement that is included there, there is an 
interesting opportunity, although during a time of a lot of 
fiscal difficulty for States, to take a look at how that has 
been operating. And, in fact, we have an open recommendation to 
DOT that they produce a report by this fall that talks about 
the maintenance-of-effort experience at the State level, 
provide some lessons learned, how that has worked, and whether 
or not States, in fact, have left some money on the table.
    I think, given the identified needs that we have discussed 
today, especially with the bridge program, it would be somewhat 
surprising if States did leave funds on the table.
    Mrs. Napolitano. Thank you.
    Mr. Kerley, any comment?
    Mr. Kerley. States are spending more money on their bridges 
than they receive from the Federal Government for the bridge 
program. Even though they transfer funding to other categories, 
they could still use them on a segment of a road that have 
bridges in it; they are just not reporting it in that way. So--
--
    Mrs. Napolitano. Isn't that to their detriment, though?
    Mr. Kerley. It would appear to me, yes, depending on how 
you are going to look at it, yes, ma'am.
    If the reporting requirement was there, the States would 
report it that particular way. They try to manage their funds 
to maximize the use of all Federal funds they receive, and that 
is the bridge program and all the other programs that come from 
Federal Government.
    So if they shift bridge funding around, they are probably 
supplementing that with State funding. For the total of what 
they are spending per year, it would be greater than what they 
receive from the Federal Government.
    Mrs. Napolitano. Well, you just stated you can't track what 
the State spends on bridge projects and bridge repair, or at 
least, you know, that goes in and out. If so, what was the 
basis for the numbers you are citing on how much the States 
spend on bridges?
    Mr. Kerley. I will get back with you directly on that, 
other than the amount of State money that is being spent, plus 
the amount of local money, plus the amount of Federal money. So 
you may have shifted some Federal money to other programs that 
maybe you are not tracking, but you supplemented that with the 
local or State money.
    But I would be happy to get back with you exactly on that.
    Mrs. Napolitano. If you would, please. I am sure the 
Subcommittee would like to be enlightened on that.
    Mr. Kerley. Yes, ma'am.
    Mrs. Napolitano. Thank you.
    Mr. Oberstar, any further questions or comments?
    Mr. Oberstar. Thank you, Madam Chair. One follow-up to the 
question Mr. Duncan raised.
    Mr. Gee, what tools has the Federal Highway Administration 
used to enforce compliance? Has Federal Highway, for example, 
ever withheld State funding for noncompliance?
    Mr. Gee. It is not a matter of withholding funding as much 
as withholding approval on projects. We have threatened on a 
number of occasions, but those particular States have taken 
steps to address our concerns. So, in my memory, we have not 
actually withheld any approvals.
    Mr. Oberstar. You have not withheld approvals.
    Mr. Gee. Right.
    Mr. Oberstar. But that is a tool available. 
    Mr. Gee. It is. And we have threatened it at least twice in 
the past 6 months.
    Mr. Oberstar. Well, the threat is good; carrying it out is 
more important. Mr. Kerley probably doesn't like to hear that, 
as a practitioner on the front line of highways.
    I am going to give Mr. Kerley, Mr. Gee, Mr. Come, an 
opportunity to give us your priorities for the future of bridge 
construction, inspection, maintenance, and oversight for the 
next 6 years of the surface transportation program.
    Don't all speak at once. 
    Mr. Come. I will be glad to start first.
    First of all, we think Federal Highways needs to roll out 
their improved national bridge inspection program, their 
improved oversight of the States' annual program. It has to be 
data-driven. It has to have minimum standards. It has to 
identify key problems and then be able to present whether a 
State is in substantial compliance or not, using consistent 
guidelines. And then they need consistent guidelines for 
enforcing those actions. I think those would be beneficial for 
the health of the program, and they will also provide the 
States with consistency, as well.
    Secondly, we want them to fully implement efforts to 
address high-priority, nationwide bridge safety risks. They 
have developed a corporate risk program that identifies risk, 
but on top of that you need to link those risks with action 
plans at the division level. So we are calling for more clarity 
on what direction the division offices have in order to address 
those high-priority risks.
    And, third, the last point that was touched on, this whole 
problem with collecting and analyzing sufficient expenditure 
information. Because you can't, right now, tell how much a 
State is spending on structurally deficient bridges, 
particularly important ones on the National Highway System that 
carry the bulk of the traffic.
    Acquiring the information to do that is going to be hard, 
but if we don't start now to improve our current tools, we 
won't meet our goal.
    So those would be the three major things we would like to 
see done, Mr. Chairman.
    Mr. Oberstar. Very good. Very, very doable. Very much in 
line with what we were already thinking in our surface 
transportation bill.
    Mr. Gee.
    Mr. Gee. I think the first priority is to make sure that we 
know what we have out there not just in terms of how many 
bridges that we have, but the way they stand not just in terms 
of structural deficiency or functional obsolescence, but in 
terms of how much remaining service life we have on individual 
bridges so that we know what the size of the problem is that is 
coming at us and that we can manage it.
    So obviously preservation is a huge part, asset management 
is a huge part of that, to make sure that we manage what we 
have so that we can deal with the challenge in a very 
comprehensive, systematic and a logical manner.
    Oversight is an issue. We very much appreciate the GAO and 
the Inspector General's audits. As you know, it was Secretary 
Peters who asked the Inspector General to review us. The 
reality is that in the 1970's, we had our own auditors, but 
then we ceded all the auditors to the IG through a 
reorganization, so we don't have that function to be able to 
audit ourselves in a sense. But we have since created a program 
management improvement team that will continue to help us to 
improve on our own management of the program.
    The other thing that happened was through some 
reorganizations more than 10 years ago, we lost some 
consistency from State to State to State. And with these new 
oversight processes we are planning to implement in 2011, we 
will have a strong assurance that we will be able to regain 
that consistency. And that process actually will augment our 
risk assessments. That tightened oversight process will 
actually help us identify risk areas throughout the country.
    Mr. Oberstar. That is a very important contribution, very 
important statement. Thank you for that.
    Mr. Gee. And the last point is performance management. As I 
noted in my testimony, the program is very much an eligibility 
program from our perspective. We have been monitoring bridge 
performance for over 20 years, but it has been a process of 
monitoring and encouraging the States to address the trend. So 
we have aspirational goals for the performance, but we do not 
have the legal mandate to engage in an oversight role on the 
performance side.
    Mr. Oberstar. You need a legal--you need more legal 
authority for that practice?
    Mr. Gee. I am not prepared to say that yet. But we have 
been working very closely with AASHTO through their Standing 
Committee on Performance Management to identify performance 
metrics and to begin to talk about what appropriate targets may 
be.
    Mr. Oberstar. Thank you. That is very helpful.
    Mr. Herr.
    Mr. Herr. One thing that we think would be useful in 
setting a broader framework or vision for this would be to 
define goals, have a better understanding of what the national 
interest is. With that there could be a shared vision in terms 
of where the program would be going, and developing metrics 
that would permit assessing success or the lack thereof. So 
with regard to bridges, for example, you may have metrics to 
measure change in condition, but those could be tied back to 
expenditures.
    Some of the questions today that we have been wrestling 
with are how much is being spent, and what are we getting for 
that? So with that kind of framework in place, that would 
hopefully put all of us in a better position in a few years 
when we come back to look at this issue again.
    Mr. Oberstar. Thank you.
    Mr. Kerley. As an owner of bridges, I would probably say 
funding, funding, funding for the top three, sir, but I will 
give you some other thoughts also.
    One, I think that we need to emphasize asset management; we 
need to address those deficient bridges; we need to think about 
all those cusp bridges that are getting ready to fall in that 
category; how can we maximize the money that we have, and the 
most cost-effective thing we can do. We need to emphasize 
preventative maintenance in that particular area.
    And third, we need to go state-of-the-art, both in the 
inspection program and design program, the type of materials 
that we are using for long-term performance supporting, since 
this is a long-term bridge performance that you mentioned. 
Those are the things that we need to concentrate on now: asset 
management, preventative maintenance, and use of the state-of-
the-art things for the future.
    Mr. Oberstar. On that score, and those are very well 
thought out, very pragmatic recommendations that you have made, 
but go back to a point I raised earlier, that we in our future 
of transportation require State DOTs to develop 6-year 
strategic investment plans. In exchange for compressing the 108 
categories of Federal-aid highway programs that exist today 
into four formula programs with more flexibility within those 
four formulas--in exchange, States are required to develop 6-
year strategic investment plans with annual benchmarks of 
performance and annual reporting so there is accountability, 
transparency and clarity about what States are planning to do 
with the Federal increase--substantially increased Federal 
funding we will provide in this bill; that within that 
structure, as I just described it, to require States to--this 
is what we have proposed to do--require States to certify they 
have addressed the bridge needs or the surface transportation 
state-of-good-repair needs--this would be in our first 
category--and have fully addressed all of the needs they have 
set forth in their plan, and then have flexibility to address 
such things as capacity out of that state-of-good-repair 
category of funding.
    What is your reaction to that?
    Mr. Kerley. I guess my first reaction would be the devil is 
in the details, sir. The States are not opposed to performance 
plans, et cetera. I would imagine it would be interesting to 
see at what levels or what performance targets people are 
setting out there, and is there sufficient funding based on 
where the system is right now to meet that goal. So I think as 
any new program, getting it up and running, getting the kinks 
out, consistency across the country, the implementation of that 
would probably be a concern that we would have initially.
    Mr. Oberstar. What we have today is essentially a revenue-
sharing program. The Federal Government collects the taxes, by 
formula redistributes or distributes those dollars to the 
States. The State DOTs have in the past said, all right, fine, 
give us the money, we will do the job. Now we are saying, we 
will give you the money, but give us a plan first of all; show 
us how you are going to use the money, be accountable to your 
public and to the national public, and through the Council on 
Intermodalism, which we establish in this bill, to establish a 
national program.
    Now, that doesn't mean that Virginia roads are built to the 
same standards as Minnesota roads or to New Mexico roads where 
the temperatures go to 114, 115 degrees, or to ours where they 
go to 80 below zero once in a while, but certainly 50 below 
zero with some frequency in the winter, and the snow and the 
salt loadings or the melt material. There are all these 
variations in climate, geography, geology and travel use that 
we have to account for. But nonetheless, there should be a 
national program, not just a revenue-sharing distribution 
program. And where we give States flexibility, as we have seen 
with the bridge program, they shift the dollars out of the 
bridge program and then complain to the public and to the 
Congress that, well, we need more money for bridges, when they 
have transferred up to half of the money out of the bridge 
program to use it on other purposes. That doesn't resonate well 
here.
    So, yes, there are a lot of details in this. And we have 
them all available, and we will send you by e-mail the 
provisions of our restructuring of the surface transportation 
program, and love to have your comments on it.
    All right. Madam Chair, thank you very much for--and to all 
of the Members of the panel for your responses, for your 
contribution today. We will continue this inquiry over the 
coming weeks and months.
    Mrs. Napolitano. Thank you, Mr. Chairman, for your great 
clarity on some of these issues that are very, very key to us. 
And I am submitting a question for the record in regard to 
Alameda Corridor, Alameda Corridor East, in a race to the train 
route that goes to delivery of goods to the rest of the Nation, 
and any of those bridges that will be utilized on the train 
route, whether or not they are in need of critical repair, 
because the Chairman brought up that issue, and I think it is 
important to start dialoguing on that.
    And with that, Mr. Chairman, I believe this adjourns 
today's meeting. And we thank the witnesses for their eloquent 
testimony and for being with us today. This meeting is now 
adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
</pre></body></html>
